CERTIFICATE OF SERVICE
NO. TBD
Michael Simons
Petitioner(s)
v.
Boston Scientific et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the MICHAEL
SIMONS PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
August W. Heckman III
Morgan, Lewis & Bockius, LLP
502 Carnegie Center
Princeton, NJ 08540-6241
(609) 919-6696
august.heckman@morganlewis.com
Counsel for Boston Scientific et al.

Lucas DeDeus

June 19, 2019
SCP Tracking: Martin-216 Haddon Avenue-Cover White

